CITY AND COUNTY OF SAN FRANCISCO

OFFICE OF THE CITY ATTORNEY

DENNIS J. HERRERA
City Attorney

AILEEN M. MCGRATH
Co-Chief of Appellate
Litigation
Direct Dial: (415) 554-4691
Email:
Aileen.McGrath@sfcityatty.org

November 19, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First St., NE
Washington, DC 20543
Re:

Barr v. City & County of San Francisco; Barr v. California, No. 20-666
Request for extension of time

Dear Mr. Harris:
I am counsel for respondent City and County of San Francisco in this matter. The court
of appeals issued its decision in this case on July 13, 2020, and petitioners filed a petition for writ
of certiorari on November 13, 2020. Responses are currently due on December 14, 2020.
Pursuant to Rule 30.4, respondent respectfully requests that the time for filing a response be
extended by 30 days, to and including January 13, 2021.
This is respondent’s first request for an extension of time. Good cause exists for the
requested extension. I represent the City and County of San Francisco in several other matters
that will require my attention in the coming weeks. In addition, the response must be reviewed
by several attorneys within the San Francisco City Attorney’s Office. An extension of time will
allow for that internal review, and will also facilitate preparation of a more thorough response
that will better assist the Court.
Thank you for your kind consideration of my request.
Very truly yours,
DENNIS J. HERRERA
City Attorney
/s/ Aileen M. McGrath
Aileen M. McGrath
Co-Chief of Appellate Litigation
cc: Acting Solicitor General Jeffrey B. Wall
Counsel for Petitioners
Joshua A. Klein, Deputy Solicitor General for the State of California (by email)
Counsel for Respondent State of California

CITY HALL, RM 234 ∙ 1 DR. CARLTON B. GOODLETT PLACE ∙ SAN FRANCISCO, CALIFORNIA 94102
RECEPTION: (415) 554-4700 ∙ FACSIMILE: (415) 554-4699
n:\govlit\li2013\091333\00979477.doc

